       ._-   ..   -: ')                 - .--   -- ----_.. -   ---.




:t1t

                                                                YOUTH SUICIDE
                                                                  National Program Inspection




                          \tlVICES.
                                      CI.r




                           iJa

             OFFICE OF INSPECTOR GENERAL
                  OFFICE OF ANALYSIS AND INSPECTIONS



                                                                                                November 1986

                                                       .-



                    Office of the Inspector General

The mission of the Office of the Inspector General (OIG) is to

promote the efficiency, effectiveness and integri ty of programs

in the Uni ted States Department of Health and Humn Services

(HHS). It does this by developi g methods to detect and prevent
fraud, waste and abuse. Created by statute in 1976, the
Inspector General keeps both the Secretary and the Congress fUlly
and currently informed about programs or management problems and
recommends corrective action. The OIG performs its mission by
conducting audi ts, investigations and inspections wi
approximately 1, 200 staff strategically located around the
country.

               Office of Analysis and Inspections

This report is produced by the Office of Analysis and Inspections
(OAI), one of the three major offices within the OIG. The other
two are the Office of Audit and the Office of Investigations.
OAI conducts inspections which are, typically, short-term studies

designed to determine program effectiveness, efficiency and

vulnerabili ty to fraud or abuse.



                             Thi s Report
Enti tIed " Youth Suicide, " this inspection was conducted to
collect information to supplement the work of the HBS Task Force
on Youth Suicide.
The report was prepared by the Regional Inspector General, Off ice
of Analysis and Inspections, Region
project were the following people:
                                      IX. Participating in this
     Kaye D. Kidwell, National Project Director, Region IX,
     Seattle, WA
     Kathy Admire, Senior Analyst, Region IX, Seattle, WA
     Ta zi tans, Headquarters, Washington, DC
     Alana Landey, Headquarters, Washington , DC
     Lucille Cop, Region II, New York Ci ty, NY
     William Counihan, Region II, New York City, NY
     Phil Onofrio, Region V, Chicago, IL
     Neil Merino, Region IX, San Francisco, CA
                                 YOUTH SUICIDE





\ i





       RICHARD   P.   KUSSEROW
       INSPECTOR GENERA                           NOVEMBER 19 
   8 6





       CONTROL iP-09-86-00032

                         . . . . . . . . . . . . . .. .. .. . . . . . . . .
                       . . . . . . . . . . . . . . . . . .. .. .. . . . . .




                                  TABLE OF CONTENTS


                                                                              Page

     INTRODUCTION

     MAJOR FINDINGS

     RECOMMNDATIONS

     SUICIDAL YOUTH:     AN OVERVIEW


     GENERA COMMNITY INVOLVEMENT AN PUBLIC AWARENESS:
         COMMUNITY RESPONSE
         PUBLIC AWARENESS


     THE COMMNITY SERVICE SYSTEM:
         TABLE 1: CLIENTS SERVED BY COMMNITY RESPONDENTS
         HHS GRATEES
         MENTAL HEALTH SERVICE S
         CRISIS INTERVENTION/HOTLINES 

         SCHOOLS
         JUVENILE JUSTICE FACILITIES
         POL ICE
         MEDICAL EXAINERS
         SURVIVOR' S GROUPS
         TABLE 2: ESTIMATE OF SUICIDAL IDEATION AMONG
                      RESPONDENTS' YOUTH CLIENTS
         TABLE 3: RESPONDENTS' ESTIMATE OF YOUTH CLIENTS

                      AT SE   OUS RISK OF SUICIDE


     IDENTIFICATION OF YOUTH AT RISK OF SUICIDE:

         DETECTION AN ACTION

         TRAINING
(i       FACTORS CONTRIBUTING TO SUCCESSFUL TREATMENT     AN PREVENTION
Ij
     WHY AREN' T KIDS BEING SERVED:
         BARRIERS TO SERVING YOUTH AT RISK OF SUICIDE
         GAPS IN SERVING YOUTH AT RISK OF SUICIDE
         TABLE 4: YOUTH SUICIDE COMPLETERS AMONG
                   RESPONDENTS' CLIENTS

     FEDERA ROLE

     STATE AN LOCAL ROLE

     COMMNITY RESPONSE TO YOUTH SUICIDE:       A SUMMRY

     APPENDIX A:      STUDY METHODOLOGY
     APPENDIX B:      COMMUNITIES CONTACTED DURING INSPECTION
     APPENDIX C:      QUESTIONS ASKED BY YOUTH ABOUT SUICIDE
! -




                                    INTRODUCTION



       Public attention is focusing on the tragedy of suicide among the
       nation s youth.   According to data from the National Center for
       Health Statistics, the suicide rate among l5- to 24- year-olds
       increased 129% from 1960 to 1983     (i. e.,
                                                from 5. 2 to 11. 9 suicides
       per 100, 000 youth). During 1983, 28, 295 Americans took their own
       lives.
       a day.
                Of these, 5, 050 were 5 to 24 years old. This averages 14
                Every 100 minutes, another young person kills himself.
       The actual number of deaths may be two times higher than the
       reported incidence because (a) there is no common definition of
       suicide among medical examiners/coroners, (b) the social stigma
       attached to suicide encourages underreporting and (c) some
       suicides are masked, such as car accidents.

       In recogni tion of the effect youth suicide has on society as a
       whole, President Reagan, pursuant to Senate Joint Resolution 53,
, J
   proclaimed June 1985 as Youth Suicide Prevention Month. As part
       of the federal government' s response to the call for action on
       this problem, the Department of Health and Human Services (DHHS)
       cosponsored a National Conference on Youth Suicide during June,
       and established a high- level HHS Task Force on Youth Suicide.
       The Task Force includes senior officials from the National
       Institute of Mental Health, National Institute of Drug Abuse,
       National Institute of Alcohol Abuse and Alcoholism, Centers for
       Disease Control, and the Office of Human Development Services
       (OHDS) Administration for Children, Youth and Families.


       The Task Force s .-andate is to " assess and consolidate
       information which currently exists and to recommend or ini          tiate
       acti vi ties which will a ttack-- ' head on ' --the youth suicide
       dilemma " and to generate research on the factors which place
       young people at risk of suicide. It sponsored three national

       conferences on (1) Risk Factors, (2) Prevention and Intervention

       and (3) Strategies for the Future between May and November 1986.
       The Task Force will culminate its work with a series of reports

       and final recommendations which will be presented to the

       Secretary in January 1987.
       The Off ice of   Inspector General (OIG)was asked to conduct a
       quali tati ve national programinspection of youth suicide which
       would supplement the work undertaken by the Task       Force.
                                                                  The
       focus of the inspection was to (a) assess the extent to which
       HHS- funded programs are involved in efforts to prevent youth
       suicide,  (b) review how selected communi ties are responding to
       the problems associated wi th youth suicide and (c) identify
       barriers and gaps which hinder delivery of services to suicidal
       youth and/or their families.
       The results of the inspection are reflected in two       reports.
                                                                      The
       enclosed report, enti tIed Youth Suicide , reflects findings based
       on 348 interviews, including many of the nationally known and
       recogni zed experts in the field of suicide research and
       prevention. Of this total, 170 in- person interviews were
       conducted through visits to 10 communities in 9 states.   In a
       telephone survey of randomly selected communi ty services agencies
       (most of whom were funded by DHHS), OIG staff interviewed 178
       persons. In all,  we talked to persons in 183 communi ties.
       Under separate cover is a companion report, entitled   Inventory
       of State Initiatives in Addressing Youth Suicide     It reflects
       findings based on telephone interviews with 283 officials from
       5 program areas in each of the 50 states, including
       (a) education , (b) mental health, (c) maternal and child health,
       (d) drug and alcohol abuse, and (e) children s services.




! 1

                               MAJOR FINDINGS


     1. Youth at risk of suicide come from various walks of life and
        personal experiences. They come from dysfunctional families
        as well as loving, supportive      families.
                                                  Health, educational
        and social service agencies describe increasing trends,
        however, in (a) the number of very young (aged 10 and under)
        attempters, (b) suicide ideation among youth of all ages,
        (c) multiple forms of self- destructive behavior and (d) a

        sense of futility among youth.


     2. Suicide is viewed as the ultimate form of self- destructive
        behavior. It is a symptom and should not be dealt wi th in
        isolation from other self- destructive behaviors or from
        social, health and educational problems facing young people.

     3. Communi ty response to youth suicide ranges from fear, denial
        and resistance to widespread support for suicide   prevention.
     4. Public education is helpful to demystify and prevent
        suicides.  Anyone who lives or works with youth should learn
        to recognize the signs of risk and where to go for help.
        News and entertainment media need to avoid sensationalizing
        or glamorizing youth suicide.
)i
     5. Educational, heal thand social service providers rely
       primarily on subjective approaches to detect youth at risk.
       Once detected, however, suicidal youth generally are screened
       out and referred to mental health providers. At issue are
       both legal lfabili ty and lack of staff expertise among non-
       mental health providers. As agencies become more
       knowledgeable and sophisticated in detecting suicidal youth,
       potential exists for more agencies to screen out suicidal
       youth from participation in their programs.

     6. Among HHS grantees, runaway programs have the greatest focus
        on youth suicide. Most community and migrant health centers
        and family planning programs are involved minimally. Many
        grantees expressed a need for more training and information
        on youth suicide.
     7. Many youth who kill themselves never enter the service system
        and those who do often drop out prior to completing
        trea tment. This is due, in part, to the stigma associated
        wi th mental health problems and suicide.

     8. More than half the study respondents ci ted family problems as
        contributing factors to suicidal risk. Family support is key
        to (a) getting youth into treatment, (b) assuring they do not
        drop out of treatment and (c) effecting a successful outcome.
     9. Lack of financial resources or private insurance limits
        access to mental health treatment.



                                     iii
       10. The most significant gaps in the service system include

           (a) too few inpatient psychiatric adolescent beds,
           particularly for public pay patients who, if admitted, are
           discharged prematurely, (b) limited subacute and alternative
           living arrangements, including residential treatment, day
           treatment, group homes and foster    care,
                                                    (c) limited out­
           patient treatment in communi ty mental health centers where
           demand is greater than supply, and (d) scarce crisis
           intervention programs and hotlines wi th a special focus for
           you th .
       11. Suicide prevention must be communi   ty based. Schoolprograms
           are key and should be developed in coordination wi th existing
           communi ty resources, including mental health and crisis
           intervention programs. Networking is crucial to keeping
           youth from falling through the cracks.




                                 RECOMMENDATIONS
IJ


          Recognizing the public s need for accurate information , the

          Department of Health and Human Services should assume a

          leadership role in educating the public to the seriousness of

          youth suicide. Public education should not focus solely on

          youth suicide, but should address related problems, such as
          the extent o   self-
                             destructive behavior among the nation
          youth and removing the stigma associated with mental heal
           treatment.
11.
           The Department should assure that grantees serving youth

           receive adequate training and technical assistance on issues

           related to suicide and other self- destructive behaviors and

           their prevention.


           The Department should continue to fund research on youth

r "

           suicide, including evaluation of the effectiveness of

           prevention models and education programs.


           The Department should identify a coordinator for youth
           suicide-related ini tiati   ves.
                         SUICIDAL YOUTH:    AN OVERVI EW



       Youth suicide is considered to be a serious problem by most of

       the service providers sampled in this    study.Many cautioned
       against viewing suicide in isolation from other types of self­
       destructi ve behavior and other social and health problems facing
       young people. Suicide is a symptom, not a disease or illness
       like alcoholism or schizophrenia. They emphasized that the
       reported incidence of completed suicides underestimates the
       magni tude of the problem. As a mental health provider noted,
        The numbers are not that significant, but the devastation caused
       by a completion outweighs all other problems. II A number of
       problems, including substance abuse, physical and sexual abuse
       and teen pregnancies, are viewed to be more significant than
       youth suicide among discrete service populations.

1 '	
       A few trends surfaced among respondents ' descriptions of youth at
       risk of suicide. The most frequently mentioned were (a) an
       increase in younger attempters (ages 5 to 10), (b) an increase in
       ideation and open discussion among all youth, (c) an increase in
       seriously disturbed youth (including chronically mentally ill),
       (d) an increase in multiple forms of self- destructive behavior
       and (e) an increasing sense of futility among youth which leads
       them to live only for the moment. As one community mental health
       provider sumarized, II They ' re sicker and younger when they first
       come to us.
       In describing the characteristics of youth at risk of suicide,
       half the respond nts ci ted family problems, conflicts or
       dysfunction as a contributing  factor.  More than a third
       mentioned that the suicidal youth they see are the victims of

       physical and/or sexual abuse, and 17% said family and/or youth

       abuse of alcohol or drugs were key   factors. Other
       characteristics of youth at risk included learning   difficulties,
       depression, isolation, loneliness, low self esteem, poor self

       image, poor impulse controls, poor coping skills, inabili ty to

       communicate, perceived futility in the present, lack of hope for

       the future, need for instant gratification, and unrealistic

       perceptions of death.


       On the other hand, some high achievers and perfectionists are
       also considered to be at risk of    suicide.These youth impose
       rigidly high expectations on themselves or perceive pressures
       from their parents and peers to succeed academically or socially.
       Their sense of self worth is contingent upon achievement, and
       they cannot accept what they perceive or define as   failure.
       one crisis worker explained, " I associate suicide with
       indomitable spirit. A young person says, ' If I can' t succeed my
       way, I'll die my way.   The touchstone of suicide is not intent
       to die, but to use suicide as the solution to life s problems.
       The goal is not death. The method is death to end the pain
       they re in.
       Two specific target groups of youth were singled out by many
       respondents as being particularly vulnerable to suicide--refugees
       from war-torn countries and youth in farm crises.   Refugees have
       suffered loss of families killed in their homelands, may feel
       guil ty for surviving when others died, and have never completed
       the grieving process. The farm crisis reportedly has resulted in
       adult suicides which, in turn , have trickled down to youth who
       are becoming increasingly despondent about their families'
       losses.




I r





rr;




)"i
              GENERA COMMUNITY INVOLVEMENT AND PUBLIC AWARENESS

       COMMUNITY RESPONSE


       Study respondents were asked to characterize their communi ties
       response to the problem of youth suicide. Al though three basic
       themes surfaced, a caveat is   necessary. In   some categories of
       service agencies, there was a parallel between the respondent'
       assessment of his communi ty ' s concern and his own agency
       involvement with youth at   risk.   This was most apparent among
       community health centers, many of whom do not come in contact
       with suicidal youth. The three emerging themes were:
           Approximately 21% of those who answered the question said
           youth suicide is not an issue in their communi ties, primarily
           because none has occurred. As a social worker in a youth
           agency said, "   out of sight, out of mind. Itonly hits home
                                          Most people don' t personalize
           it.
           when it' s someone you know.
                When it occurs, it happens to someone else.
           Another 19% said denial, fear and resistance characterize
f ­

           their communities. In some cases, there s " utter denial that
           young people take their own lives.    Some are driven by fear
j I

           and conclude that "if you don t recognize it, it will go
           away.   In some cases the resistance is exacerbating the
           problem among surviving youth. A runaway shelter
           administrator noted, " There have been several suicides among
           high school students with no discussion allowed in the
           schools and 
 o media coverage for the communi ty at large.

           Kids aren t allowed to mourn , and the result is negative.

r !
       Approximately 37%  said their communi ties are very concerned
           about the problem, are eager to learn and respond, and have
           cooperated in marshalling support. As an example, in one
           small midwestern farm communi ty, there was a six-week general
           education night course for adults held at the local school.
           Parents and other adults learned what signs to look for, what
           to do when they detected a suicidal person, and what to do
           about the stresses in their   families.  Others pointed out
            It' s an issue that cannot be  ignored.  Nobody finds a
           child' s death acceptable--we must do something.
       Other responses were qui te   varied. Insome areas, other youth
       issues-- primarily teen pregnancy and substance abuse-- are
       percei ved to be of such import that the problem of suicide
       diminishes in comparison. In some communi ties, cyclical patterns
       were described: first, outrage and hysteria occur immediately
       after a suicide; then, individuals and agencies scurry to
       intervene and educate; and finally, concern "dries out" until
       another death occurs. Some mental health professionals
       particularly distinguish between communi ty response to youth
       suicide and the mental health problems among children which, if
       unrecognized and untended, will create future personal and
     societal problems. They believe their communi ties   are very
     uninformed about mental heal th problems of youth.
     PUBLIC AWARENESS


     The consensus among study respondents was that public awareness

     is necessary to demystify and prevent   suicides.  Generally,
     public education has a posi ti ve effect when people (a) understand
     that suicide can happen to someone they know and (b) are taught
     what to do and where to go for help when they detect a friend,
     peer, colleague or loved one who is at   risk.  In other words,
     education leads to better decision making. A few respondents
     expressed fear, however, that public awareness can have a mixed
     impact and may increase the incidence among youth. " It may bring
     suicide on more quickly among persons who eventually would
     destroy themselves, " said a family planning practitioner.
     communi ty health practi tioner cautioned, " You need to educate the
     public to save lives, but you ll lose some,
     dilemma. "
                                                   too. It'  s a
J!
     A major concern among many respondents is the role of both the
     news and entertainment media. The power of the media is
     phenomenal, whether it is positive or  negative. Respondents
     believe children and adolescents to be particularly vulnerable to
     media influence and point to problems when the media
1!
     sensationalize, glamorize or romanticize a death. Movies, TV and
     music particularly give kids erroneous messages about death and
     dying.  To the contrary, as one school official noted, " Kids need
     to realize there s no Easter Sunday for mortals.   A hotline
     director sumari zed the belief expressed by many respondents
      Don t underesti'ate the influence of the media.  Kids get the
     idea they can have everything--every sexual, travel, cosmetic and
     drug experience. It distorts the way they perceive life and
     themselves . "
     Some respondents expressed gratitude that their local media are
1:
     responsi ve and responsible in their coverage of  suicides. Some
     others, however, were appalled and angry over media insensi ti vi ty
     and irresponsibility. In one school when two completions and one
     serious attempt occurred, the local news media sensationalized

     we said they couldn  t.
     each story " bigger and bigger. They tried to talk to kids when
                              When we wouldn t allow them on campus,
     they followed kids home and queried them when their parents
     weren t present. We had a memorial service in the school gym for
     one student whose family asked the press not to   attend. It  was
     like war, trying to keep reporters and cameramen
     in with a camera under his coat.
                                                         out.One snuck

     In sumary, many study respondents call for responsible public
     education in order to reduce the social taboos which hinder (a) a
     person from expressing suicidal feelings and (b) family, friends,
     teachers and service providers from receiving the message. In
     particular, it helps young people learn that it' s "     k. to tell"
     when a friend is in danger. A& a school psychologist teaches
     students, " It' s better to lose a friendship than a friend.
                                   THE COMMUNITY SERVICE SYSTEM


       The description of the service system which follows is based on

       discussions with 305 providers who served over 1. 6 million youth.

       They represent social, mental health, health, educational,

       juvenile justice and other service areas which touch on the lives

       of young people. Table 1 reflects the number of youth served by

       the study respondents who were able to provide data on their

       clientele.

                                                       TABLE 1

                                   CLIENTS SERVED BY     COMNITY RESPONDENTS

                                                          Total Number                               Percent
                    Provider/Program                        Clients          Total          Number   You t h
                       (N = 261)                             Served          You t h        Served   Served
r .

          UNDUPLICATED COUNTS:

          Communi ty Mental Heal th          Centers             261 012                      173      36.
r;!                (N = 62)

          Other Mental Heal th Providers                               661                    672      56.
                    (N = 33)


j"1
          Communi ty /Migran   t   Heal th   Centers             383 209          180 956             47.
                    (N = 33)

          Child/Teen Health        Clinics (N = 4)                15, 950                    950     100.
          Family Planning (N = 18)                               414 087          210 446             50.
          Runaway & Homeless Programs                            111 870               93 , 924        84.
                    (N = 71)

          Multi-Service Youth Agencies                                 240                   970      99.
                    (N = 8)
          Schools (N = 12)                                       860 740          860 740             100.
          Juvenile Justice         (N = 4)                        61   140             61     140     100.

                    TOTALS                                       163, 909         591 971              73.

          DUPLICATED COUNTS:


          Crisis Programs/Hotlines (N = 16)                      631 607          293 580              46.

HHS GRANTEES


Three categories of HHS- funded grantees were surveyed during the
study to assess the extent to which they are involved in efforts
to prevent youth suicide. These grantees were (a) runaway and
homeless youth programs funded by the Office of Human Development
Services (OHDS), (b) family planning agencies funded by the
Public Health Service (PHS) and (c) community health centers and
migrant health centers, also funded by PHS.

Runaway and Homeless Youth Programs    Most of the runaway and
homeless programs sampled both on-site and by telephone focused
on young people ages 18 and under. A few, particularly large
programs, also served parents and other adults through their
crisis intervention, emergency shelter and counseling programs.
The runaway and homeless programs provided a broad range of
services, including emergency shelter, individual, family and
group counseling, legal representation for youth in custody
hearings, case advocacy, medical and dental care, drop-
services (primarily food and clothing for street people),
recreation programs, hotlines and communi ty education.

Most runaway and homeless program respondents in the sample
believed that the youth they serve are at risk of suicide. On
average, they report that about 39% of their clients have
considered suicide and 12% are at serious risk of killing
themsel ves . (See Tables 2 and 3 on pages 13 and 14. ) A few
dissenters pointed out, however, that runaways, homeless youth
and street kids have a strong survival instinct.
Several shelters admitted to screening out youth at risk of
suicide, primarily because of the liability they would incur if a
client completed suicide while in their care.   Those who do
accept youth at risk take great precautions to not leave the
youth alone, but rather to supervise them 24 hours a day.    Such
 suicide watches " require an intense one-on-one monitoring
capabili ty among the shelterstaff.
Family Planning   Most of the family planning grantees sampled by
telephone in this study had little or no involvement in youth
suicide issues. The exceptions (19% of the sample) were
primarily comprehensive health centers, multi-service agencies or
local health departments that incorporated a family planning
program. One of these had a separate suicide counseling program
to which youth at risk were referred.  Another agency had a
psychiatrist and a mental health counselor on staff to help
detect and treat those at risk.  Other suicide-related services
included:  (a) school and community outreach, including
presentations on subjects such as depression, grief management,
self-esteem and decision making, (b) peer advocate training,
(c) sex abuse therapy for two- to six- year-olds, and (d) basic
counseling. Otherwise,  the grantees noted that they would refer
any client they believe to be at risk to mental health providers.
Several family planning respondents decried their inabili ty to
       identify or assess risk of suicide, especially given their lack

       of training and limited staff and funding which prescribe their
       service priori ties. Overall, they estimated that less than 5% of
       their young clients have considered suicide and less than 1% are
       a t serious risk (see Tables 2 and 3).

       Community Health Centers (CHCs) and Migrant Health Centers
       These health clinics (sampled by telephone) serve low income
       people in underserved rural or inner city areas. A third said
       they had special pediatric staff to serve children and youth.
       More than a third provide mental health services, although they
       are available only to adults in some instances. An addi tional 8%
       wi th no mental health services indicated the availability of
       educational and/or social services. A few work wi th the schools
       in their communi   ties.
       The tone of these interviews was significantly different from
       other types of study respondents. Seventy percent said they had
       virtually no involvement wi th the issue of youth suicide.
1 :

       typical comment was, "    re a medical facili ty, and people come
       to us for medical problems only.

       Approximately 25% of the clinics had occasionally been involved

       with the issue of youth    suicide.
                                         Three clinics are actively
       involved in screening kids for risk factors, including suicide.
       Noted a staff member at one of these  clinics: "A. lot of kids at
       risk of suicide also need medical care. There s a real tie.
       Overall, the community and migrant health centers estimated that
       over a third of the youth they serve have had some suicidal
       ideation and tha 8% are seriously at risk. (See Tables 2
       and 3.
       MENTAL HEALTH SERVICES

       The availability of mental health services varies significantly

       among communi ties.  Ideally, communi ties offer a broad range of
       services, varying inI'intensi ty, which collectively comprise a
        continuum of care.     Such a system theoretically enables clients
       to move from one component of the service system to another as
       their treatment needs change. In the course of this study, we
       contacted over 100 mental health providers--a wide array in
       communi ties selected for on-site field work plus an addi tional
       sample of communi ty mental health centers and National Health
       Service Corps psychiatrists by telephone. Nearly all the
       providers indicated at least some involvement wi th youth at risk
       of suicide.   They represented the following components of the
       mental health service system:

       Communi ty Mental Health Centers (CMHCs)   These agencies,   funded
       primarily from public sources and sliding fees, are often    located
       in low income and underserved areas. Some are staffed to     provide
       outpa tient counseling, while others offer a comprehensive   range
       of services , including hotlines , emergency/crisis intervention,
       day treatment, communi ty education and residential treatment.
       Over a third of the sample had specialized staff to work wi 

       children and youth, primarily up to the age of
       categorize youth over 18 as adults.
                                                       18.  Most

       Sixty percent of the sample said they work wi th schools on mental
       heal th   issues.
                       Some participate on crisis teams that respond to
       school suicides. Many work with other communi ty sectors,
       providing speakers, sponsoring workshops and conferences,
       promoting networking and developing coali tions around suicide
       issues.
       Sixty percent frequently or routinely treat suicidal youth.
       Another 30 % occasionally do. Ten percent indicated they rarely
       ever treat youth at risk of suicide. On average, CMHCs estimate
       that 38% of the youth they serve evidence some suicidal ideation
       and that more than half are at serious risk of suicide (see
       Tables 2 and 3).
       Other Outpatient Mental Health Clinics . A few other outpatient

       mental health clinics , primarily attached to major medical or

       psychiatric facilities, were visited during on-si te fieldwork.

       All reported involvement wi th suicidal youth.


       Therapists in private Practice   Several private therapists were
       contacted during on-site fieldwork. Most have been involved in
       counseling suicidal youth and reflect concerns similar to
       therapists employed in CMHCs and other outpatient mental health
       clinics.  The biggest difference is that their caseloads consist
       primarily of private pay clients.
       Day Treatment pr5grams    At a more intense level, a few

                    offer adolescent day treatment programs , which are

       communi ties 	
       sometimes used as an alternative to hospitalization. They
       provide a highly structured, therapeutic environment during the

       day, but participants reside elsewhere--often wi th their

       families, in foster care or group homes. Many clients have been
       discharged from psychiatric hospi tals.
       These youth attend school on site and participate in recreational

I .	   and other structured social acti vi ties. Some receive vocational
       training.  There is a strong emphasis on counseling and therapy,
       as well as on strengthening problem solving and practical daily
       living skills. Where feasible, the rest of the family is
       involved in the treatment plan. Participants commonly stay in
       day treatment for months or even    years.The threat of suicide is
       reported to be " an ever present risk" among youth in these
       programs.
       Group Homes and Residential Treatment Facili ties    Some
       communi ties a
                    	 lso have group homes and residential treatment

       facili ties which provide an even higher level of structure and
       intensity. Of those visited, some focused on drug and alcohol

       treatment while others were primarily psychiatric facili ties.
       Participants reside on site with varying degrees of supervision

       and independence. Indicated one    program director: " If a kid
       can  t make it here, then he has to be hospi tal i z ed. We re the
       last stop before inpatient treatment or the first step back into
       society upon discharge from the hospital.     SUbstantively, the
       programs visited were similar to the day treatment programs,
       offer ing on-site educational, vocational, recreational and
       therapeutic components with a strong focus on problem solving and
       practical skill development. Stays ranged from a few months to a
       few years. Residential facilities are actively and routinely
       invol ved wi th yout considered to be at risk of suicide.

       Inpatient psychiatric Hospitals    At the most intense level are
       the acute, inpatient psychiatric facili ties. OIG staff visi ted a
       dozen such facili   ties.Eight had special units for adolescents.
       Youth who are acutely at risk of suicide are admi tted to
       inpatient facilities most frequently for a few days of crisis
       stabilization, but sometimes for more extended periods.
       addi tion to intense psychotherapy and crisis management, these
       facili ties emphasize educational, recreational, coping and
       practical skills.
       Emergency Services     Communi ties vary dramatically in their
       approach to suicidal emergencies. In most larger communi ties,
       there was some focal point for trying to stabilize a crisis
       si tuation and/or determine whether voluntary or involuntary
1'1    commi tment to a hospi tal is warranted. Sometimes this function
       was performed by hospi tal emergency room staff or by communi
       mental health center   staff. Other communi ties have specialized
       mobile crisis uni ts which are available 24 hours a day and can go
f .

       to the person in~crisis to conduct an evaluation. One city
       visi ted had a specialized mobile crisis team that focuses
       specifically on children and youth.

       CRISIS INTERVENTION/HOTLINES

       The crisis intervention programs contacted ranged from hotlines
       serving solely latch- key grade school children to comprehensive
       crisis care for all   ages.   The latter multi- purpose organizations
       included such services as phone hotlines, therapeutic treatment,
r .

       drop- in group counseling, day care referral, communi ty outreach,
       chemical dependency detoxification, suicide prevention training,
       grief counseling and survivors ' support, research, and
       psychological autopsies. Their focus also ranged from specific
       target groups such as teenagers to all ages, from suicide-
       specific to general crises. Some hotlines are manned 24 hours a
       day, others for the few hours children are home alone after
       school.   Some serve speci f ic local communi ties, others are
       national in scope. Despi te their range of size, structure,
       services and targets, they had some commonali   ties.   Most rely on
       volunteers to staff their crisis phone lines and require these
       volunteers to complete intensive training after which the
       selected volunteers formally commi t to contribute specific
       amounts of time.   Those wi th suicidal focus or expertise are
       sought after in their communi ties as resources to train adults
( ­





        and youth on suicide prevention. Some also provide intervention

        teams to assist school officials when suicides occur among the

        student body. On average, they estimate that 34% of the youth
        they serve evidence suicidal ideation and 9% are at serious risk

        of suicide. (See Tables 2 and 3.
        Some hotlines advocate reflective listening with a guarantee of

        anonymi ty to help the caller work through a crisis and reach his

        own decision. Others aggressively trace calls when they believe

        the caller to be at or near suicide and call the police or other
        emergency response units to           intervene.
                                                The latter is impossible,
        however, through the national lines.
        Beyond basic funding, a great challenge facing most crisis
        programs is maintaining the reservoir of experienced, trained
        vol unteers. Other major concerns include:
            outreach-- getting kids to call, to usethe crisis services,
r i

            determining lethali ty          (i. e.,
                                         the seriousness of suicidal
            intent) in youth, since most assessment tools are geared to

            adul ts ,
            getting kids to treatment. " Once            we intervene, the system
            falls apart 
            the caller do sn' t follow through, " noted a

            di rector.
I I
    In one communi ty, local hospitals were converting excess beds to
        adolescent care and marketing them as suicide prevention
        services.   They use a crisis line approach, but then won t talk
        to callers unless they re interested in hospi tali za tion.

 o '.   SCHOOLS

        public and private Schools   Public and private school

        respondents in the study varied from officials of the second

        largest school district in the nation serving 585,
000 students

        kindergarten through 12th grade to an al terna te grammar and high
        school program serving 65 depressed youth and juvenile
        delinquents ages 5 to 21, whom the public schools could no longer
        serve.
        The most comprehensive intervention and prevention efforts were
        in place in districts and schools where visible and frequently
        mul tiple suicides among the student body had sparked peer,
        parental, school and community concern and              response.
                                                               Among the
        school ini          tiati ves,
                             OIG staff saw models for:
            screening elementary school children to determine risk,
            crisis intervention teams in the schools who respond to

            emergencies,
            student curricula for           in- class prevention awareness,

            afterschool hotlines,
            peer counseling,

            in-service training, wri tten             manuals and resource guides for
            faculty and staff,

( ' ­

    "




         and youth on suicide prevention. Some also provide intervention
         teams to assist school officials when suicides occur among the
         student body. On average, they estimate that 34% of the youth
         they serve evidence suicidal ideation and 9% are at serious risk
         of suicide. (See Tables 2 and 3.
         Some hotlines advocate reflective listening with a guarantee of

         anonymi ty to help the caller work through a crisis and reach his

         own decision. Others aggressively trace calls when they believe

         the caller to be at or near suicide and call the police or other
         emergency response units to intervene. The latter is impossible,
         however, through the national lines.
         Beyond basic funding, a great challenge facing most crisis
         programs is maintaining the reservoir of experienced, trained
         volunteers. Other major concerns include:
             outreach-- getting kids to call, to use the crisis services,
r i

             determining lethali ty             (i. e.,
                                           the seriousness of suicidal
             intent) in youth, since most assessment tools are geared to
             adul ts,
             getting kids to              treatment. " Once        we intervene, the system
             falls apart 
            the caller do       sn I t   follow through, " noted a

             di rector.
r r
     In one communi ty, local hospi tals were converting excess beds to

         adolescent care and marketing them as suicide prevention

         services.   They use a crisis line approach, but then won I t talk
         to callers unless they I re interested in hospi tali za tion.

         SCHOOLS

         public and private Schools   Public and private school
         respondents in the study varied from officials of the second
         largest school district in the nation serving 585, 000 students in
         kindergarten through 12th grade to an alternate grammar and high
         school program serving 65 depressed youth and juvenile
         delinquents ages 5 to 21, whom the public schools could no longer
         serve.
         The most comprehensive intervention and prevention efforts were

         in place in districts and schools where visible and frequently

         mul tiple suicides among the student body had sparked peer,
         parental, school and communi ty concern and response. Among the

         school ini          tiati ves,
                              OIG staff saw models for:
             screening elementary school children to determine risk,
             crisis intervention teams in the schools who respond to

             emergencies,
             student curricula for             in-class prevention awareness,

             afterschool hotlines,
             peer counseling,

             in-service training, wri tten                manuals and resource guides for

             facul ty and staff,

       " -




                 periodic or ongoing workshops, seminars and conferences, and

                 protocols for action in the event of a suicide   crisis.
             Admi ttedly, some districts are cautiously addressing   suicide,
             gi ven the myriad demands upon schools, limi ted funding for
             special initiati ves, liabili ty
                                            concerns, and communi ty and/or
             parental pressures to focus only on academic services.

             peer Programs     An interview was conducted with the archi tects of
             a peer program which has been adopted by over 150 schools in
             several states. The program is based on the premise that
              natural helpers " (those to whom students are likely to turn in a
             crisis) exist in every peer group in a   school.  The concept is to
             identify those kids and give them intensive training so they can
             do an even better job of what they would be doing anyway-­
             identifying and supporting peers wi   th problems. Selection of
             these " natural helpers " is accomplished through an " anonymous
             survey of all students. The program stresses that the role of a
              natural helper " is to identify and support a peer with a
             problem, not to be a counselor. Even with intensive training,
             one of the biggest challenges has been to persuade the " natural
             helpers " to " share the secret" with an adult when they suspect or
             are told of a pending suicide attempt.
             Many schools, therapists and other service providers were

             enthusiastic about the role peers can play in the identification

             of youth at risk of  suicide. Some schools have resisted
             implementing peer programs because of a concern with    liability.
             JUVENILE JUSTICE FACILITIES
             A few juvenile justice facili ties were visited during the on-si
             fieldwork. All expressed   considerable concern and involvement
             wi th the potential for suicide among the youth detained in their
             care and stressed that they place a strong emphasis on minimizing
r .
         the opportuni ty for suicide in their facili ties. They estimate
             that 68% of their population have some suicidal ideation and more

             than a third are at serious risk of   suicide. (See Tables 2
             and 3.   One facility reported that because they are not
             considered to be a treatment facili ty, they are precluded from
             conducting a psychological evaluation until a child has been in

             residence for at least two weeks.


             POLICE
             Since suicide is not considered to be a crime in the communi   ties
             visi ted by OIG staff, the police generally were not actively
             involved in suicide issues. A few basic exceptions existed.
             half of the cities, police investigate suicide attempts, looking
             especially for indications of physicial, sexual or substance
             abuse of attempters under age   18. In a third of the cities, the
                                                                  I offices.
             police investigate deaths for the medical examiners 

             one communi ty, a youth counselor was assigned to the police

             department to intervene in crises, including working wi 

, !




       attempters or youth at risk of  suicide. Finally, one officer
       note that the police investigate persons who aid attempters
       since assisting a suicide is a  crime. In some communi  ties,
       mobile crisis teams are dispatched through the police department

       and in others police trace calls and run interception when they

       receive direct calls from suicidal youth or are asked by crisis

       hotlines to trace and intervene.  Commonly, when the police
       encounter suicidal youth, they refer them to mental health
       agencies for evaluation.

       MEDICAL EXAMINERS

       The role and philosophy of medical examiners visi ted varies
       greatly. Two  had no protocol or official cri teria for
       determining suicide, noting that deaths are deemed to be

       accidents unless hard evidence of suicide  exists.  In one city,
       the medical examiners' staff did no on-site (scene of death)
       investigations, relying on the police or morticians to transport
1 :

       the bodies for examination. Only one medical examiner had an
       extensive suicide protocol used by investigative staff to define
       not only the cause and manner of death but also what led up to
       the death. Basically, these investigators do a psychological
       autopsy.  The other examiners ' offices noted that they do routine
       autopsies to determine the type of death-- i. e.,accident, natural
       cause, homocide, suicide.
       In two communi ties, the issue of age is key in suicide

       determinations. In one   state, deaths of children aged ten and
       under cannot be considered suicides. In a large urban county in

       another state, t e medical examiner said, "    re cautious about

       determining suicide, " and said he would not consider any death of
       a youngster aged 14 or under as a suicide. He explained that the

       age cri terion differed from county to county depending on each
       medical examiner' s policies. Yet in another large urban area,
       the youngest documented suicide was a seven- year- old boy who left
       a note of intent and shot   himself. Some medical examiners
       admi tted feeling, and sometimes succumbing to, pressure from

       families to determine deaths as accidents or natural causes

       because of the associated stigma.

       SURVIVOR' S GROUPS

       The need for grief counseling is being recognized in many
       communi ties. Whether it is provided through special survivor
       organizations, churches, mental health centers or crisis
       intervention programs, these grief counseling groups help family
       members, friends, colleagues and classmates to survive the pain,
       anger, guilt and other emotions associated wi th a suicide. Most
       counsel wi th loving support toward a goal of preventing family or
       friends from also taking their own lives in their anguish.
                                           TABLE 2

            ESTIMATE OF SUICIDAL IDEATION AMONG RESPONDENTS' YOUTH CLIENTS



                                                                   Number Who
   Percent Who

               Provider / Program             Total Number
        Considered
   Considered

                  (N = 179)
                  Youth Served
         Suicide
       Suicide


       UNDUPLICATED COUNTS:

       Community Mental Health Centers
                     971
         819
       38.
               (N = 41)


       Other Mental Heal th   Providers              13, 421
            655
       49.
I :

               (N = 27)


       Community/Migrant Health Centers
                    203
         311
       35.
I :	           (N = 19)


       Child/Teen Health Clinics (N = 
                     500
         500
       20.
f I

       Family Planning (N =                      122 175
                462


       Runaway & Homeless Programs                          655
         489
       38.
               (N = 58)

       Mu1 ti-Service Youth Agencies                 11 ,   370
         173
       27.
               (N = 4)
       Schools (N = 6)                           146 920
               , 109


       Juvenile Justice (N = 
                              090
         514
       67.

               TOTALS                            532 305
            108 032        20.

       DUPLICATED COUNTS:


       Crisis Programs/Hotlines (N = 13)
                   548
         081        34.
                                           TABLE 3

           RESPONDENTS' ESTIMATE OF YOUTH CLIENTS AT SERIOUS RISK OF SUICIDE



                                                                Number      Percent
              Provider/Program                  Total Number
    You t h     You t h
                 (N = 183)
                     Youth Served
   At Ri s k   At Risk

      UNDUPLICATED COUNTS:

      Community Mental Health Centers                    183         666      22.
              (N = 46)
I..
      Other Mental Health Providers                      527         268      34.
              (N = 26)

      Community/Migrant Health Centers               86, 527        , 710
              (N = 20)

      Child/Teen Health Clinics (N =                     500         255

      Family Planning (N = 8)                        122 195         222

      Runaway & Homeless Programs                       , 779        318       12.
              (N = 54)

      Multi-Service You th Agencies                      570         368      30.
              (N = 4)
      Schools (N = 9)                                150 635         920

      Juvenile Justice (N =                              090         917       35.
I !


              TOTALS                                 543, 006        644

      DUPLICATED COUNTS:

      Crisis Programs/Hot lines (N = 11)                 039          191
                     IDENTIFICATION OF YOUTH AT RISK OF SUICIDE



       DETECTION AND ACTION


       School officials and service providers were asked to describe how

       they detect youth at risk of suicide among their service

       population.   Mental health providers (both inpatient and out­
       patient) all had some type of screening approach to identify

       suicide risk. These approaches varied from (a) reliance on their

       clinical expertise and training to identify warning signs

       (including body language) to (b) patient self-reporting at intake
       to (c) routine mental health status examinations and structured
       interviews to (d) formal clinical assessments. Mental health
       professionals note that by the time a client is referred to them,
       someone in the social, health or educational service system or a
       family member or friend has identified a mental health problem.
       Thus, the practi tioners often are alert to any warnings or signs
       of suicidal risk. Some youth are particularly difficult to
       identify.   For example, one inpatient psychiatric practitioner
       said, " The ones who scare us are those who can t verbalize, but
       give clues through drawings or gestures.

       Among non-mental health respondents, approximately half rely on
('I    subjective or informal approaches to detecting youth at risk.
       This ranges from observation of behavior and open-ended

       discussions to " how do you feel about yourself" questions during
       the intake process. Approximately ten percent apply what they
       describe as a full suicide assessment. OIG staff did not
       evaluate these t9-ls. A few programs, including runaway
       shel ters, currently are testing screening tools developed by

       OHDS- funded grantees. In addi tion to detection , such tools are
       designed to help workers begin to structure intervention
       approaches.
       A few respondents admitted to doing nothing to detect youth at
       risk of suicide. Most prominent among those " no detection
       respondents were 45% of the community and migrant health centers,
       19% of the schools and 22% of the crisis programs/hotlines.
r !



       Agencies were asked if an HHS- developed screening tool would be
       helpful to    them.  Of the 271 who responded to the question , 41%
       said it would be helpful and they would actually use it, and 16%
       said they would not use such a    tool.  Most of the latter
       respondents are satisfied wi th the tools they currently are using
       or testing.     The exceptions are the schools who face special
       constraints. Most schools are not allowed to do such assessments
       without parental permission. Others are precluded by time and
       resource limitations. For example, in some districts, school
       counselors and psychologists must focus on special education
       students since their funding is derived primarily from
       P . L. 94- 142, the Education for the Handicapped Act.  The
       remaining 43% qualif ied their answers, noting that they might
       modify their current approaches by adopting portions of any new
       tools developed by HHS or others.
Actions taken subsequent to detection also vary widely. Most
non-mental health providers refer at-risk youth to hospitals,
CMHCs or private therapists for further evaluation , intervention
and treatment. It should be noted that some school districts are
precluded by law from referring students to private practi tioners
or anyone not tax-supported. Hotlines specifically mentioned the
need to talk a caller through the immediate crisis before making
referrals.   Some hotlines trace calls or try in some way to
identify the caller and seek police or paramedic intervention
when a caller is in a highly lethal situation.    Some
organizations, including schools, family planning and runaway
shel ters have in-house staff who counsel clients. Approximately
20% of the runaway and homeless programs have a triage protocol.
Acutely suicidal youth are screened out and taken to inpatient
psychiatric facilities or to outpatient facilities, depending on
availabili ty. Two factors provide the primary impetus to screen
out acutely suicidal youth: (a) a recognition that mental health
professionals may be better able to intervene and save the
client' s life and (b) the threat of legal/financial liability if
the youth dies while still a program client.    Less acute youth
are monitored closely (via 24- hour suicide watches) and
counseled. Many agencies " contract" with the youth who remain
under their care. In essence, the youth is asked to agree to a
 no suicide pact, " to promise he will not commi t suicide for a
specific period of time.
TRAINING

In approximately 15% of the service agencies, staff and
volunteers have not received any training on suicide  issues.
approxima tely ha !f the agencies, staff receive some kind of in-
service training that touches on suicide--these range from an
hour s presentation to week-long intensive sessions on detection
and intervention. Another 13% have sent their staff to suicide
workshops, and 17% said their staff had received mental health
and/or suicide-specific training prior to being hired.
FACTORS CONTRIBUTING TO SUCCESSFUL TREATMENT AND PREVENTION


Study respondents were asked to describe what works for them in
addressing the problems of youth at risk of  suicide.   The
consensus was that youth at risk need professional help and that,
if possible, the family should be involved in the treatment plan.
As a medical practitioner emphasized, " We can 't treat suicide.
We have to treat what caused the child to consider this as an
option. This ties into the next most common response--to
provide a supportive environment. Families are an integral part
of a support system. Where parental involvement is not possible,
other players (e. g., teachers, counselors, peers, friends) in the
support system become even more important.   Also emphasized was
the need to develop caring, trusting, honest relationships,
preferably one-on-one. This is especially important in
developing posi ti ve therapeutic relationships. Kids need to be
able to talk about their feelings and their problems. This can
( !





       occur more easily when someone listens and cares in a
       nonthreatening, nonjudgmental way.

       Other frequent suggestions were to (a) teach youth better daily

       living skills--how to cope wi th problems, make wiser decisions,

       (b) contract during the immediacy of crisis by establishing a no-

       suicide pact, (c) provide peer advocacy through the schools,

       (d) provide strong case management once a child is in the system
       to assure he doesn t drop through the cracks, (e) assure
       continuity of care and (f) sanitize the environment by removing
       the lethal i tems--e.g., guns and pills--which can be used easily
       upon impulse. As one researcher pointed out, " Often whether kids
       die or not depends on how well stocked their medicine cabinet is.
       Completers die because the means are readily available.
                         WHY AREN' T KIDS BEING SERVED?


       BARIERS TO SERVING YOUTH AT RISK OF SUICIDE
       Several major barriers to serving youth at risk of suicide were

       identified consistently by all types of respondents:


       Accessing the service system   Significant numbers of youth who

       kill themselves never enter the service system at
       typical comments:

                                                            all.
                                                               Some

            There is a certain segment of suicidal youth who do not    give
           any signs, but who are incredibly lethal. We can impact
           those who are ambivalent, but not those who are beyond
           ambivalence. " (CMHC therapist)
            The ones in therapy aren t killing themselves. It' s those
           beyond our reach we must worry about.   (psychiatrist)
       A county medical examiner    s study of 25 youth suicides (age 19
       and under) found that 72%
       the overwhelming majority
                                    had not received anyservices.   Indeed,
                                   of service agencies interviewed by OIG
       staff were unaware of any   completed suicides wi thin the past year
       among their clients. (See Table 4 on page 25.      Mental health
       professionals are not in a posi tion to ini
                                                 tially screen youth who
       might be suicidal. They are dependent on parents, school
       personnel, pediatricians, clergy and other " front-line " workers
       to detect that something is amiss and that professional help is
I :	   needed.  Over half the mental health providers indicated that one
       of their biggest~challenges is getting kids into treatment.
       This is not a problem unique to mental health providers. Youth
       have a general reputation for reluctance to enter any tradi tional
       service system. Many of the health clinics ' staff indicated
       their difficulties in getting youth, especially adolescents, in
       thei r doora for medical treatment. " Kids won t come in and
       they re very hostile when they do, " noted a physician at an
       adolescent health clinic. " Unless they need a sports physical,

       they re acutely ill by the time we see them, n said a communi ty
       heal th center physician.


       There is, however, a particular stigma associated wi th mental
       health services. Young people fear being labeled " crazy " and are
       terrified that their peers will find out they are in therapy.
       Respondents stressed that young people should be told what to
       expect before they enter the mental health service system.
       Furthermore, suicide is still a taboo subject for many people.
       Convincing minorities to enter the treatment system is seen as a
       particularly difficult challenge.

       Parents are often seen as contributing to the problem. Over a
       third of the mental health providers and a fourth of the runaway

       programs saw parental resistance and denial as a major barrier to

      Subacute programs and al terna ti ve li ving arrangements
      Another major gap in the mental health service system is
      the need for an array of subacute facili ties, other
      therapeutic programs and al terna ti ve living
     arrangements, such as residential treatment facili ties

     day treatment programs, group homes and foster 

                                                     care.
     Respondents stress the need for follow-UD of care.
     Noted one hospital- based psychiatrist,   We can bring
     them in from the ledge, but without continuity of
     they' ll be right back out there in a different    care,
     presentation , but just as suicidal.
     Many hospi talized youth cannot be discharged
     successfully from a psychiatric facili ty wi thout an
     intermediate stop in an after- care program. A range of
     therapeutic options with varying levels of service
     intensi ty and supervision are needed. These programs
     also serve a key role as alternatives to inpatient

     treatment.  Because so many hospitalized youth cannot
     realistically return home to a stable family
     environment, alternative living arrangements are
     cri tical. There is also a need for respi te care for
     parents and foster families. These latter programs are
     nonexistent or rare in most communi   ties.
     Outpatient therapy     Al though available in most
     communi ties, communi ty mental heal th centers are plagued
     wi th chronic staff shortages and long wai    ting lists.
     Frequently they can accept only the most severe cases.
     Noted one health clinic physician, " Even following a
     crisis, ~there ' s a six to eight week waiting period for
     CMHC counseling. " A CMHC clinician said, " We are
     forced, due to lack of resources, to wai t until a
     patient is imminently suicidal before we can intervene
     and treat. " Some CMHCs do not have specialized staff to
     work with youth, and several identified the need for
     more family therapy.   Al though the services of pri   va te
     therapists are available in many communi ties, fees are
     often prohibi ti vely high for many families.
     Emergency mobile crisis response teams    Communi ties
     wi thout thistype of service stress the need for crisis
     teams, available on a 24- hour basis, that can go to a
     youth in a suicidal crisis for stabilization and
     evaluation.  Even where available, it sometimes takes
     too long for the crisis unit to respond.
Hotlines    Although many communities have at least one
hotline, sometimes it is difficult to get through-- a cri tical
problem for a person in imminent danger. A hotline director
admitted, " If teens are put on hold more than sixty seconds,
they re lost. We never hear from them again. " There are few
bilingual hotlines. Those wi thout special outreach  to youth
find that few adolescents use their services.
,'




       Men tal health continuum of care


            Inpatient psychiatric beds and special uni ts for
            adolescents    The most frequently mentioned gap in the
            service system is the lack of inpatient psychiatric beds

            for youth (reported by more than half of the communi 

            mental health centers, more than a quarter of the

            runaway programs, communi ty health centers and other

            therapists, and numerous other respondents as well).

            In many communi ties, there are no speciali   zed adolescent
            psychiatric uni   ts.Youth are placed in adult
            psychiatric wards or general purpose hospi tal beds,
            nei ther of which is regarded as a satisfactory
            al ternati ve. Even in communi ties that have adolescent
            psychiatric uni ts, access is extremely limi ted for other
            than private pay patients. One runaway shelter reported
            that they had experienced three serious suicide attempts
            from three different youth in a two-month period.
            each case, there was no inpatient bed available, and
            they eventually had to send these youth back home to
            await placement. Noted an official at a juvenile
            justice institution, " If parents can afford it or have
            insurance, we can sometimes transfer a severely
            disturbed kid to a psychiatric hospital, but otherwise
I !

            it' s the juvenile prison.

            Staff at many of the inpatient psychiatric facili ties
           agree that demand outweighs     supply:
                        re turned away unless they re dripping blood.

                  We can only accept the most extreme cases.


                   By the time we can treat   them, we can' t   reach
                  them. "
           In some cases, the only way for a child without

           insurance to be admi tted as an inpatient is for the
           parents to negate custody and declare the youth a ward

           of the court.


           Inpatient staff report tremendous pressure to discharge

           public pay patients as soon as     possible.
                                                      Over a third
           said they cannot keep public pay patients long enough.
               re allowed to keep them two weeks when they need to
           stay three to six months, " noted a psychiatrist. After­
           care facilities such as residential and day treatment
           programs complain that youth are frequently discharged
           to them in highly unstable condi    tions.
                                                    Noted one
           director, " The hospital stays are briefer and briefer,
           so there s more recycling all the time. We get them
           back here when they re not even close to being
           stabilized. "
 ,)




       Others require large co- payments and have annual or lifetime

       limits on what they will      pay.
                                       Health main'tenance organizations
       were ?ingled out by several respondents as providing inadequate
       mental health coverage for their membeFs.

       Legal barriers
           Commi tment   laws     Laws regarding the voluntary and
           invol untary commi    tment of youth to inpatient facilities   vary
           among jurisdictions. It is difficult in most, however,
           commi t an   acute   y suicidal youth wi thout his consent.

           Concern over liability    Fear of liability keeps many service
           providers from serving potentially suicidal       youth.
                                                                One state
           is rewri ting regulations for its drug and alcohol inpatient
           treatment facilities, requiring that youth at risk of suicide
           be screened out of treatment. There were reports of
           increased insurance costs associated wi th crisis
           intervention. One telephone hotline reported a 900% increase
           in insurance rates during this past year.

           parental consent        In many jurisdictions, youth cannot

           recei ve services wi thout    the signature of a parent or
           guardian.
       Other Barriers.


           Transporta tion   This is particularly a problem in rural

           areas and communi ties wi thout adequate public transportation.

I :

           Staff fear a    burnout Suicidal youth are a difficult,
           highly stressful group to      serve.
                                              The threat of suicide
           raises anxiety at every level. Providers express fear that
            even if I can detect a potential suicide, I can t keep it
           from happening.    Noted staff from a runaway shelter, " Our
           fear of dealing with high risk kids blocks us from
           effectively serving them.
           Cul tural/societal attitudes toward self- destructive behavior
           Several respondents expressed concern over the promotion of
           self-destructi ve behavior at rock concerts, through music
           videos and in movies. Said a therapist, " m fighting a
           whole culture that' s condoning self- destructive behavior
           through MTV, rock concerts, Rambo fantasies and a general
           punk lifestyle.

       GAPS IN SERVING YOUTH AT RISK OF SUICIDE

       Many respondents stressed that the service system in general        is
       stretched to capaci ty and that most communi ties need more.

       services for youth, particularly the      poor.
                                                     The need for
       addi tional staff and funding was one of the most frequently
       mentioned issues, regardless of the type of       provider.
                                                                Other
       major gaps include:
       the treatment of high risk   youth. Many parents feel threatened
       and are extremely defensive to the possibility that they might be
       part f the problem.    It is also a challenge to convince them of
       the seriousness of a suicidal threat and to enlist their

       cooperation.  Noted one school official, " A fourth grader told a
       counselor how he was going to commi t suicide. When we told his
       parents--an attorney and a health profeasional--their reaction
       was, 'he doesn't even know what that means.
       Parents often react negatively to the mental health stigma or are
       apathetic toward their children   s welfare.  Noted a therapist,
        We have had parents whose kids have attempted suicide refuse
       trea tment, because they didn 't want their kids to be labeled
       crazy. " A psychiatrist who heads a clinic specifically for
       suicidal youth said that " of the 40% who refuse treatment,
       usually it' s the whole family, not just the kid, who isn
       interested. "
        n equally big problem is that many youth who enter treatment
       don t stay long enough.   A clinic which speciali zes in depressed
       and suicidal youth found that 80% of their patients do not
       complete the necessary treatment. Young people are notorious for
       not keeping appointments. Many won t come voluntarily, so
       wi thout strong family support the likelihood of dropping out of
       therapy is considerable, especially after the immediate crisis
       has been stabilized.
       The dilemma of getting and keeping youth in treatment was

       sumarized by a therapist, " Unfortunately, many kids at risk of
       suicide never ge identified or by the time we get to them it'
       too late. But an even greater tragedy is that many who are
       identified refuse treatment or drop out before we ve had a chance
1'1    to do much good.

       Respondents also express frustration that once treated, youth are
r:     forced to return to the same unhealthy environment that
       contributed to the crisis in the first    place.Noted one
       psychiatrist, " It is very frustrating to discharge them back to
       the same hopeless environment--no job, a screwed-up family and a
r "

       bleak future. So many have so few options.
       Lack of resources    Men tal heal th therapy is expens i ve.
       Outpatient therapy commonly ranges from $50 to $100 an hour , and
       inpatient treatment without private insurance coverage is
       prohibi tive for all but the wealthiest of   families.    For families
       with limited resources and no insurance, there are few treatment
       options available. For outpatient services, these families will
       most likely be steered to community mental health agencies, which
       charge for services on a sliding fee    scale.   For some families,
       even a sliding fee is prohibitive.

       Available insurance is often inadequate. Many policies place
       1 imi ta tions on men tal health services. For example, some do not
       cover the services of clinicians who are not medical doctors.
                                                             , "





     Services in rural areas
 Rural communi ties face a special

     challenge because the nearest mental health services are

     often miles away. Noted one communi ty health clinician
     places like this, you re lucky to have even one mental health
     professional in the whole communi ty. "


     School programs   One of the most common themes was the need

     for school programs which include a focus on
                                                   faculty, staff
     parents and students. Components need to include staff

     training, a student curriculum and a well-
                                                defined protocol
     outlining steps to take in the event of a suicide 

                                                        emergency.
     There were reports of resistance from some school board

     members and administrators, partly out of a fear that any

     effort would encourage suicide, or a denial that this is a

     problem in their atudent populations.


     Communi ty education and awareness    There is a need for

     extensive training and education on youth suicide throughout

     communi ties. Anyone who comes into regular contact wi

     youth, the so-called " gate-keepers, " should be made aware of
     the potential for suicide among young people, know the

     warning signa to look for, and where to go for help.    This
     includes parents, school personnel, hospital emergency room
     staffs, pediatricians and primary care physicians, child
     protecti ve services staff, foster parents, clergy, coaches,
     the whole array of youth service agencies, and the police, as
     well as youth themselves. The importance of developing peer
     programs was frequently stressed.
     There is also a need for better training of mental heal 

     professionals, to work with both youth and suicidal persons

     of any age. 
  number of mental health professionals said

     they wished they had better diagnostic tools, particularly to

,I   predict the potential lethali ty of suicidal risk. A few
     stressed that standardized diagnostic tests don t work well

     on youth.
     Networking   Respondents said that service agencies need to
     join together in cooperatively preventing youth suicide,
     rather than working in isolation. Many mentioned turf

     problems, which are exacerbated by the fact that so many

     agencies are competing for the same limited
     typical comments:

                                                 dollars.   Some

           Too many people claim ownership of different parts of

          the same kid. " (CMHC therapist)


          Each service agency is very isolated from the others.
         They don t know what' s happening in the other parts of
         their clients
         service systems.
                         ' lives. It'
                                    s very important to mesh
                             (psychiatrist affiliated wi th a

         uni versi ty)
          Because suicide is a symptom of children wi th serious,
         often multiple problems, networking is very important.
            Suicide can be the ultimate effect of falling through

            the cracks and being treated by a compartmentalized

            service system. " (therapist)


       Services to pre-teens and older youth    Many respondents
       stressed the need to focus more on older youth, particularly
       those 17 and older, as well as pre-teens.   Several mental
       heal th providers said that they have had patients as young as
       fi ve or six who evidenced obvious suicidal symptoms.
       Respondents also stressed the need for early intervention.
       Identifying and treating young children at risk prevents
       problems from escalating into even more serious dimensions as
       these children move into adolescence.




I!;

                                 FEDERAL ROLE


       More than half the respondents said they would like to see HHS

       involved in educating the public about youth    suicide. They
       support the federal government assuming a leadership role in
       recognizing the seriousness of the problem and serving as a
       catalyst to encourage communi ties to develop their own

       initiati ves.   Most stressed that the thrust of a public education
       campaign should not focus solely on youth suicide, but should

       address related problems such as removing the stigma associated

       wi th seeking mental health treatment and the extent of all self-

       destructive behavior among today ' s youth. Of the HHS- funded
       grantees contacted in this study, over a third of the runaway

       programs and over a quarter of the family planning programs and

       communi ty /migrant health centers said they would like more
       training and information on this issue.
       There is a particular interest in having the Department develop

) i	   and disseminate materials on youth suicide or support a
       clearinghouse for materials developed elsewhere.    There was great
       concern that communi ties not reinvent the wheel II
                                                        
 as they develop
       their own initiatives. A significant number of materials, 

       including curricula, have been developed, but there is no central

       reposi tory where interested parties can go to see what is

       available.

       Other suggestions which surfaced frequently:

           HHS should support youth suicide  research. Evaluating   what
           works in prev nting suicides is especially   needed.
           HHS should establish national policies in support of youth
           and the family. Many respondents echoed the theme that lI our
           children are our future. There is a great deal of concern
I i	       about the disintegration of American families.
           HHS should provide demonstration funding for suicide
           prevention programs as well as stabilized funding for mental
           heal th and youth services in general.



                             STATE AND LOCAL ROLE



       Respondents believe that youth suicide issues need to be
       addressed primarily at the community level through grass roots
       involvement. There is a need for a collaborative, community-
       based approach to this problem. Respondents especially stressed
       the need for public education, communi ty awareness and the
       invol vement of the schools.  They also called for private sector
       involvement, particularly for businesses to educate their own
       employees about mental health and youth suicide issues and to
       support financially local service agencies.
) ,





               COMMUNITY RESPONSE TO YOUTH SUICIDE:        A SUMMRY

       Nobody really knows what prevents youth      suicide.
                                                          There is
       clearly a need for more research in this area. We have attempted

       to sumari ze, however, what the study respondents collectively

       see as key elements to addressing the problem of youth suicide.
       No community had all of these elements in place, but many are

       striving toward these as  goals.  This, then, is what a model
       service system and communi ty approach would include:

          A full continuum of mental health services, including

               Inpatient psychiatric facili ties, preferably wi
               special uni ts for adolescents.
               A range of subacute programs for youth wi th varying
               levels of service intensity and supervision, including
               residential treatment facili ties, day treatment programs
               and therapeutic group homes. These are needed as
                after-care " programs for youth discharged from
               inpa tient facil i ties,   as well as for al terna ti ves to
               hospi talization.
               Outpa tient counseling, preferably by therapists who

                specialize in treating youth and who involve the entire

                family in treatment.


               A mobile emergency crisis response team which can go to

                    ou;h, responding quickly in the event of a suicidal

                crlS1S.
I ,

                Improved access to mental health services for those wi th
               no insurance and limi ted private resources.

                Special training on youth suicide for mental health

               professionals.
           Programs in the schools, including


               Training for teachers, nurses, counselors,

               administrators and other school personnel in the

               identification of youth at risk of suicide and other

               self-destructi ve behaviors.


                Training parents similarly, plus emphasi zing the need to

                rid the home of guns, medicines and other potentially

                lethal weapons, and stressing the importance of seeking

                professional help for high risk children.


                A curriculum for students, which focuses not only on
                suicide issues, but also other self- destructive behavior
                and youth problems, with a strong emphasis on developing
                good coping and decision making skills, posi ti ve mental
                health attitudes and " life management"      skills.
     Development of peer advocacy programs, wi th emphasis on
     peer identification, referral and support of youth wi
     problems, rather than peer counseling.

     A well-defined step- by-step protocol to use in the event

     of a suicide or an attempt, to avoid contagion among

     students.
     A clearly defined referral system to use when at-risk

     youth are identified.


     An evaluation component to determine which ini tiatives
     are helping to prevent     suicide.
     Utilizing existing community resources, such as crisis

     intervention centers, communi ty mental health centers

     and private therapists, in the development of school-

     based strategies and     initiatives.
A communi tv-wide collabora   ti ve approach   to addressing youth
suicide, including

     Group homes, foster homes and other al terna ti ve living
     arrangements for youth who cannot live at home.
     Training programs for agencies and individuals who work
     wi th youth, including emergency room       personnel,
     pediatricians," primary care physicians,child protective
     service workers, foster parents, youth agencies,
     coaches, clergy, juvenile justice programs and police.
     A responslble media which has adopted voluntary
     guidelines in the coverage of youth suicides.
     Improved networking and cooperation among agencies and
     indi viduals who serve youth.
     Greater attention to suicide among older youth and

     pre-teens.
                                                                 APPENDIX A

                                STUDY METHODOLOGY


       During this study, OIG staff interviewed a total of 631
       as defined by the following categories:                    people,
       STUDY RESPONDENTS


       Communi ty Mental Health Centers

       Other Mental Health Providers
       Communi ty and Migrant Health Centers
       Children I s and Teen Health Clinics
       Family Planning Programs
       Runaway and Homeless Youth Programs
       Mul ti-Service Youth Agencies
       Crisis Intervention Programs and Hotlines
       Schools
1:
       Juvenile Justice
       Survi vor/Grief Counseling Groups

       Local Governmen

       Police
       Medical Examiner I s Offices
       Experts, Researchers, Academicians
       State Programs (a minimum in each state of education        283
I I

           mental health, children I s services, substance
           abuse, and maternal and child health programs)


                                               TOTAL               631
       Interviews were field in person and by telephone. Of the total,
       170 in- personinterviews were conducted through staff visi ts to
       ten communi ties in nine states.
       in February and March 1986 in:
                                         On-si te fieldwork was conducted


           Phoenix, Arizona                    Chicago, Illinois

           Los Angeles, California             Central New Jersey

           San Francisco, California           New York City, New York

           Denver, Colorado                    Fairfax County, Virginia

Jr         Jacksonville, Florida               Seattle, Washington
       Selection of these sites was based on the following cri   teria:
          geographic spread
          a mix of large and small populous states
          a mix of cities and larger urban areas
          states wi th a high rate and/or high incidence of suicide
          presence of innovative state, local government and private
           sector efforts
          a mix of communi ties wi th recognized suicide prevention

          programs and communi ties wi thout such recognized efforts.

       Community contacts     included:
           Schools (K-12)
           P6lice
           Juvenile justice programs

           Heal th and mental health providers (both inpatient and

           outpatient)
           Child welfare agencies

           Medical examiners/coroners
           Hotlines/crisis intervention centers

           Drug and alcohol programs

           Youth shelters/runaway and homeless youth programs

           Survi vor groups
           Youth/peer groups

           State and local governments

           Res earcher s / academi c i ans/ experts
       Also during February and March, OIG staff interviewed by
       telephone 178 persons representing community service agencies
       funded by HHS, ei ther directly or indirectly. These respondents
       were selected at random from nationwide lists of (a) direct
I !




       grantees and (b) service providers funded under block grants to
       states.  Four categories of respondents were selected from OHDS
                          lists:
       and PHS grantee
           family planning programs
           runaway and homeless youth programs
           communi ty and   migrant health centers
           National Health Service Corps psychiatric   si tes
       Sites belonging t the fifth category--community mental health
       centers--were selected from the National Directory of CMHCs (June
       1985) prepared by the National Council of Communi ty Mental Health
       Centers, because mental health programs are funded through HHS
       block grants to the states, and comprehensive lists of state
       grantees were unavailable.
       A total of IS3 local communi ties were represented in interviews
       conducted on-site and by      telephone.
                                              (See Appendix B, which lists
I'     the specific communi ties represented in the on-si te fieldwork and
       random telephone surveys.

       During April, 283 state respondents were interviewed by telephone

       in an effort to inventory state initiatives which address youth

       suicide issues. The findings from this inventory are published

       under separate cover. The following five agencies were contacted

       in each state. Generically, these core state agencies were

       defined as:
           educa tion/public instruction

           mental health

           drug and alcohol abuse

           maternal and child health

           children s services (foster care, child abuse and neglect,
           and children s protective services)
      In some states, knowledgeable representatives from governor s and

      lieutenant governor s offices, legislatures and planning agencies

      were contacted.
      In sumary, OIG staff contacted representatives of state and

      local, public and private sectors in all 50 states, Puerto Rico

      and the Virgin Islands.




f'1
MONTANA                NORTH DAKOTA
       VIRGINIA
   Billings               Bismarck            Arlington
                          Grand Forks         Fairfax
NEBRASKA                                      Falls Church
   Lincoln             OHIO                  McLean
   Omaha                  Cleveland           New Canton
                          Columbus            Res ton
NEVADA                    Toledo              Richmond
   Las Vegas
             Youngstown          Springfield
   Reno
                       OKLAHOMA            VIRGIN ISLAN S
NEW HAPSHIRE
             Alva                St.   Thomas
   Manches ter
           Ardmore
                          McAlester        WASHINGTON
NEW JERSEY
                                   Bellevue
   Atlantic City
      OREGON                 Issaquah
   Belle Mead
            Portland            Kirkland
   Belleville
            Woodburn            Seattle
   Bridgewater
                               Spokane
   Cape May
           PENNSYLVANIA           T ac oma
   Dumont                 Doyles town         Toppenish
   Dune 11 en             State College

   Edison                                  WEST VIRGINIA

   Glassboro           PUERTO RICO            Charleston
   Hackensack             Ponce               Fairmont
   Newark
   Piscataway          RHODE ISLAN         WISCONSIN
   Somerville             Providence          Milwaukee
   South Orange
                              Racine
   Trenton             SOUTH CAROLINA
                          Charleston       WYOMING
NEW MEXICO                                    Rock Springs
    Albuquerque        SOUTH DAKOTA

    Portales              Sioux Falls

                          Sisseton
NEW YORK

    Al bany            TENNESSEE
    As toria
             Knoxville
    Bronx                 Nashville
    Brooklyn              Wartburg
    Goshen
    Jamaica            TEXAS
    Manhattan             Austin
    Norwich               Dallas
    Rochester             Houston
    Rockaway Beach        Plainview
    Rome
    Staten Island      UTAH

    Whi te    Plains      Ogden

    Woodstock
                       VERMONT
NORTH CAROLINA
           Montpelier
    Charlotte
    Durham
":     -: .   :')




                                                                              APPENDIX C


                                QUESTIONS ASKED BY YOUTH ABOUT SUICIDE


                    A church-affiliated organization of 200 youth meet once a week     in
                    study groups of 20 to discuss issues of major      concern.
                                                                             Each
                    year, suicide has been identified as a topic to be addressed.
                    Following are examples of issues and questions raised by one
                    study group in preparation for discussion of this topic:

                    How do you recognize the symptoms of suicide?


                    I would like to know about what causes people to turn to suicide.

                    This will make us more aware of the si tuations around us.


                    How do you deal with people who have tried and failed?


                    What sort of problems are bad enough to end it all?


                    How to make yourself better without dying?


I ;

                    What does it feel like to lose a person you love because that

                    person kills himself?

                    What can be done to prevent it?     The thought has sometimes

                    entered my mind.


                    Is teenage drinking and driving actually suicide?


                    Teach us how to cope with these    si tuations.

                    Explain other ways out besides    suicide.

                    What is the death rate for teen suicide?


                    How do you deal with a friend who is talking about suicide?

r: I                How to deal with a death of someone close to you and how they
                    would feel if you committed suicide.


                    Are people who commit suicide very depressed and do it as a quick

                    thought or do these people think it out?


                    If someone calls and tells you they re going to kill themselves,

                    what do you tell . them? Do you just listen or try to give advice?


                    I think there should be a course in high school on     suicide.

                    Problems tha t teens have and how to    cope.

                    You say that suicide doesn t solve your problems, but doesn't it?

                    Everything is over... dead.

